                   December 6, 1999

                   HENRY A. PANKEY
                   VICE PRESIDENT, MID-ALTANTIC AREA OPERATIONS

                   SUBJECT:	 Mail Processing Delays at the Louisville
                             Processing and Distribution Center
                             (Report Number TR-MA-00-001)

                   This management advisory report presents our
                   observations regarding actions necessary to correct the
                   problems we identified during an ongoing audit (Project
                   Number 00PR003TR000). During the audit, we visited the
                   Louisville Processing and Distribution Center and identified
                   a significant quantity of mail that was not processed but
                   rather staged at the facility for several days. We are
                   providing this interim report so immediate action can be
                   taken to correct the problems we identified.

Results In Brief   A site visit to the Louisville Processing and Distribution
                   Center disclosed a significant quantity of delayed and
                   unprocessed mail stored and staged at the facility. This
                   mail had been stored and staged for several weeks. In
                   addition, facility personnel misrepresented processing
                   deadlines and inaccurately reported mail volumes to Postal
                   Service Headquarters. We offered four suggestions to
                   investigate and remedy the causes for mail processing
                   delays. Management agreed with our suggestions and
                   stated that the review led to decisions, which will create
                   better control and integrity in the processing and reporting
                   of mail volumes. Management’s comments, in their
                   entirety, are included in Appendix B.

Delayed and        During the week of November 1, 1999, we found the
Unprocessed Mail   equivalent of 20 trailers of unprocessed Periodicals and
                   Standard Mail stored and staged in various locations at the
                   Louisville Processing and Distribution Center. The mail was
                   staged in various areas on the plant floor and in sealed and
                   unsealed trailers in the yard, and stored in an unsecured


                            Restricted Information
Mailing Processing Delays at the                                                   TR-MA-00-001
 Louisville Processing and Distribution Center


                               mail transport equipment storage area. Although we
                               identified mail that was up to a week late, plant personnel
                               stated the age of mail ranged from one to three weeks.
                               (See photos of the mail in Appendix A).

                               Although postal procedures require that all mail be
                               unloaded, plant personnel indicated they were instructed by
                               plant supervisors to offload only First-Class Mail from the
                               trailers. Other classes of mail remained on the trailers
                               staged in the yard or other areas.

                               According to plant management, delayed and unprocessed
                               mail resulted from insufficient mail handler personnel and
                               either inoperable or unproductive equipment. The number
                               of mail handlers was not sufficient for the volume of mail at
                               the plant, and headquarters did not approve a request for
                               additional staffing. Additionally, mail processing equipment
                               was inoperable for a period of time in September 1999,
                               resulting in a backlog. Finally, productivity on the small
                               parcel and bundle sorter was not maximized. As a result,
                               management concluded they had no alternative for
                               processing the mail and could not fully eliminate the
                               backlog.

Inaccurate Status              Plant personnel misrepresented the processing deadlines
Reporting                      for mail and inaccurately reported mail volumes to Postal
                               Service Headquarters in the daily mail condition report.
                               Correct reporting allows upper management to take action
                               to process delayed mail.

                               Processing Deadlines. Headquarters established mail color
                               codes to provide processing deadlines for timely mail
                               delivery. When plant personnel and managers determined
                               that mail was delayed, they changed the color code to
                               indicate a current status. For example, we observed plant
                               personnel changing color codes on mail received on
                               Sunday, October 31, 1999, to color codes for Friday and
                               Saturday, November 5 and 6. We also observed a
                               Manager of Distribution Operations engaging in the same
                               practice.

                               Mail Volume. Plant personnel did not report the correct
                               condition of the mail to Postal Service Headquarters. For
                               example, on November 4, 1999, the Internal Van/Trailer
                               Report listed nine trailers of Periodicals and Standard Mail


                                                     2
                                          Restricted Information
Mailing Processing Delays at the                                                     TR-MA-00-001
 Louisville Processing and Distribution Center


                               on hand in a delayed status. However, the November 4,
                               1999, Daily Mail Condition Report to headquarters did not
                               show any delayed mail. The mail processing clerk stated all
                               trailers are reported as volume on hand regardless of the
                               time in the yard. This procedure had been in effect for at
                               least eight years.

Management’s Action            On November 5, 1999, we verbally reported the problems
                               identified in this report to Postal Service Headquarters
                               Operations. Headquarters Field Operations Support
                               directed the Kentuckiana District to take immediate actions
                               to correct the problems identified. District officials provided
                               additional staff to work over the weekend, used Christmas
                               casuals from other facilities, and redirected some mail to
                               other locations for processing. All of the delayed mail was
                               processed and distributed by November 8, 1999.

Suggestions                    Because the conditions we observed during the audit were
                               egregious and potentially damaging to the Postal Service's
                               reputation with its customers, we suggest the vice
                               president, Mid-Atlantic Area Operations:

                               1. 	 Investigate the causes for the delayed processing of
                                    mail to identify weaknesses in internal controls.

                               2. 	 Take corrective action to ensure that all incoming mail is
                                    unloaded, processed, and correctly reported on daily
                                    mail condition reports, and that color codes on mail
                                    containers are not changed.

                               3. 	 Review mail volumes in relation to staffing and
                                    determine whether additional personnel are required.

                               4. 	 Ensure that all equipment is operational and productive.

Management’s                   The vice president, Mid-Atlantic Area Operations, agreed
Comments                       with our suggestions and stated the review led to decisions,
                               which will create better control and integrity in the
                               processing and reporting of mail volumes. He also stated
                               the review had benefits beyond Louisville and he had
                               shared the need for better control with other offices.
                               Management planned to take the following actions:




                                                     3
                                          Restricted Information
Mailing Processing Delays at the                                                     TR-MA-00-001
 Louisville Processing and Distribution Center


                                       1. Addressed the volume recording procedures on
                                          November 15, 1999, and discontinued the reload
                                          procedures.

                                       2. Conduct color code training for required
                                          managers and craft employee, and will conduct
                                          unannounced visits to ensure compliance. They
                                          also plan to take corrective action against any
                                          employee who willfully misrepresents mail volume
                                          or color code procedures.

                                       3.	 Review mail volume in relation to staff as part of
                                           the ongoing review of utilization and productivity
                                           measurement.

                                       4. 	 Re-institute its preventative maintenance policies
                                           and procedures, and will conduct a maintenance
                                           review within the next 30 days. Area
                                           maintenance support staff will monitor to ensure
                                           compliance.

Evaluation of                  We view management’s comments as responsive, and their
Management’s                   actions taken and planned should correct the conditions
Comments                       identified in this report.

                               We appreciate the cooperation and courtesies provided by
                               our staff during the review. If you have any questions,
                               please contact me at (703) 248-2300.



                               Richard F. Chambers
                               Assistant Inspector General
                                for Performance

                               cc: 	 Clarence E. Lewis Jr.
                                    John E. Potter
                                    John A. Rapp
                                    John R. Gunnels




                                                     4
                                          Restricted Information
Mailing Processing Delays at the                                                          TR-MA-00-001
 Louisville Processing and Distribution Center


                         APPENDIX A. PHOTOS OF THE MAIL




                                Picture 1: Mail Staged On The Plant Floor




                Picture 2: Mail Staged In Sealed But Unsecured Truck In The Plant Yard.




                                                     5
                                          Restricted Information
Mailing Processing Delays at the                                                 TR-MA-00-001
 Louisville Processing and Distribution Center




                                    Picture 3: Mail Staged In A Trailer




                          Picture 4: Trailer Of Mail Staged Near An Open Gate.




                                                     6
                                          Restricted Information
Mailing Processing Delays at the                                                           TR-MA-00-001
 Louisville Processing and Distribution Center




              Picture 5: Mail Staged and Stored In Mail Transport Equipment Storage Area




                                                     7
                                          Restricted Information
Mailing Processing Delays at the                                   TR-MA-00-001
 Louisville Processing and Distribution Center


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                     8
                                          Restricted Information
Mailing Processing Delays at the                                   TR-MA-00-001
 Louisville Processing and Distribution Center




                                                     9
                                          Restricted Information
Mailing Processing Delays at the                                   TR-MA-00-001
 Louisville Processing and Distribution Center


Major Contributors to
the Report




                                                    10
                                          Restricted Information
